No.
IN THE
SUPREME COURT OF THE UNITED STATES

Brian Hook - Petitioner;
v.
State of Indiana - Respondent;

PROOF OF SERVICE

j , 2020,
I, the undersigned, do swear or declare that on this date, Qcsh)h ej~
as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the U.S. Mail properly
addressed to each party and with sufficient first-class postage prepaid.
The names and addresses of those served are as follows:
Indiana Attorney General, I.G.C.S., 5th Floor, 302 W. Washington Street, Indianapolis, In 462042770

Brian Hook #211604
Appellant / Pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001
Petitioner / pro se

